      Department of Homeland Security




            Federal Emergency Management Agency 

                      Privacy Stewardship





OIG-13-87                                           May 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov



                                       May 1, 2013

MEMORANDUM FOR:              Richard Serino
                             Deputy Administrator
                             Federal Emergency Management Agency

FROM:                        Frank Deffer
                             Assistant Inspector General
                             Office of Information Technology Audits

SUBJECT:                     Federal Emergency Management Agency Privacy
                             Stewardship


Attached for your action is our final report, Federal Emergency Management Agency
Privacy Stewardship. We incorporated the formal comments from the Federal
Emergency Management Agency in the final report.

The report contains four recommendations aimed at improving privacy stewardship
within the Federal Emergency Management Agency. Your office concurred with all
recommendations. As prescribed by the Department of Homeland Security Directive
077-1, Follow-Up and Resolutions for the Office of Inspector General Report
Recommendations, within 90 days of the date of this memorandum, please provide our
office with a written response that includes your (1) agreement or disagreement, (2)
corrective action plan, and (3) target completion date for each recommendation. Also,
please include responsible parties and any other supporting documentation necessary
to inform us about the current status of the recommendation. Until your response is
received and evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Marj Leaming, Director,
System Privacy Division, at (202) 254-4172.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


Table of Contents
Executive Summary............................................................................................................. 1 



Background ......................................................................................................................... 2 



Results of Audit ................................................................................................................... 6 



           Efforts To Improve Privacy Stewardship................................................................. 6 

           

           FEMA Needs To Address Compliance With Privacy Requirements ........................ 7 

           Recommendation.................................................................................................. 10 

           Management Comments and OIG Analysis .......................................................... 10 

           

           Privacy Protection Weak at Disaster Relief Sites .................................................. 11 

           Recommendations ................................................................................................ 17 

           Management Comments and OIG Analysis .......................................................... 17 

           

           FEMA-wide Privacy Training and Awareness ........................................................ 18 

           Recommendation.................................................................................................. 19 

           Management Comments and OIG Analysis .......................................................... 20 


Appendixes


           Appendix A:           Objectives, Scope, and Methodology ........................................... 21 

           Appendix B:           Management Comments to the Draft Report .............................. 22 

           Appendix C:           Legislation, Memoranda, Directives, and Guidance Related to the 

                                 FEMA Privacy Stewardship Audit .................................................. 25 

           Appendix D:           Component-Level Privacy Officer Designation and Duties ........... 27 

           Appendix E:           TAFISMA Systems That Affect Privacy: Compliance Status ......... 28 

           Appendix F:           FEMA Unauthorized Information Technology Systems 

                                 Memorandum ............................................................................... 32 

           Appendix G:           DHS Fair Information Practice Principles at Work ........................ 34 

           Appendix H:           Culture of Privacy Survey .............................................................. 36 

           Appendix I:           Major Contributors to This Report ............................................... 37 

           Appendix J:           Report Distribution ....................................................................... 38 

                   OFFICE OF INSPECTOR GENERAL
                      Department of Homeland Security


Abbreviations
     CIO        Chief Information Officer
     DHS        Department of Homeland Security
     FEMA       Federal Emergency Management Agency
     FEKC       FEMA Employee Knowledge Center
     FISMA      FederalfInformationfSecurityfManagementfActfoff2002
     IT         information technology
     NEMIS      National Emergency Management Information System
     OCIO       Office of the Chief Information Officer
     OIG        Office of Inspector General
     OMB        Office of Management and Budget
     PII        personally identifiable information
     PIA        privacy impact assessment
     PTA        privacy threshold analysis
     SORN       system of records notice
     TAFISMA    Trusted AgentfFederalfInformationfSecurityfManagementfAct
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Executive Summary
We performed an audit of the Federal Emergency Management Agency’s (FEMA) privacy
stewardship. Our audit objectives were to determine whether FEMA’s plans and
activities instill a culture of privacy that protects sensitive personally identifiable
information and whether FEMA ensures compliance with Federal privacy laws and
policies.

FEMA has made progress in implementing plans and activities to instill a culture of
privacy. Specifically, it has established a privacy office that, among other functions,
prepares reports on FEMA’s privacy activities to the Department of Homeland Security
Privacy Office, reviews suspected privacy incidents, and oversees FEMA’s privacy
training. However, FEMA faces a number of challenges in ensuring that personally
identifiable information is protected. Specifically, it needs an accurate inventory of its
information technology systems that impact privacy. In addition, FEMA needs to
complete required privacy compliance analyses, including privacy threshold analyses,
privacy impact assessments, and system of records notices, for 430 information
technology systems that were reported as unauthorized.

FEMA also must address challenges with protecting personally identifiable information
at disaster relief sites. Specifically, FEMA needs to conduct privacy assessments at
disaster relief sites to improve accountability, identify risks, and implement appropriate
privacy safeguards for the protection of personally identifiable information collected
during field operations. In addition, FEMA needs to provide specialized field training to
the disaster relief workforce, including procedures on properly collecting and handling
personally identifiable information from applicants immediately after a disaster.

Finally, although FEMA has implemented a standardized privacy training course, it does
not have an effective system to enforce the employee training requirement. We are
making four recommendations to FEMA, which if implemented, should improve privacy
stewardship and enhance protection of personally identifiable information.




www.oig.dhs.gov                              1                                     OIG-13-87

                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Background
The PrivacyfActfoff1974f(PrivacyfAct), as amended, imposes various requirements on
agencies whenever they collect, use, maintain, or disseminate personally identifiable
information (PII) in a system of records.1 The Department of Homeland Security (DHS)
defines PII as any information that permits an individual to be identified directly or
indirectly from any information that can be linked to that individual regardless of
whether the individual is a U.S. citizen, lawful permanent resident, visitor to the United
States, employee, or contractor to the Department. Federal laws, regulations, policies,
and guidelines set the minimum standards for handling PII. Appendix C lists
requirements related to FEMA’s privacy stewardship.

To accomplish its mission to prepare for, prevent, respond to, and recover from
domestic disasters and emergencies, FEMA collects, uses, maintains, or disseminates
significant amounts of PII daily. FEMA has more than 7,300 full-time employees at
Headquarters, 10 regional offices, 3 national processing service centers, 2 mail
processing centers, and additional sites across the country. FEMA also has more than
10,400 temporary employees who are available for deployment to disaster areas, as
needed. Figure 1 lists three key purposes for which FEMA collects PII from the public.

Figure 1. Key Purposes for Collection of Personally Identifiable Information
     Purposes for
                         From Whom or What                            PII That May Be Collected
      Collection
                      Flood insurance applicants,
                                                       Name, information on insurance claims, building
    Flood Insurance   agents, policy holders, and
                                                       contents, and payments
                      companies
                      State, territorial, and tribal   Grant information, organization name, bank routing and
                      officials; port and transit      account number, Social Security or employer identification
    Grants
                      authorities; nonprofit           number, point of contact’s work and email addresses, and
                      organizations; and companies     numbers for work phone, cell phone, and fax
    Disaster                                           Name, address, Social Security number, birth date, phone,
    Recovery          Individuals                      disaster-related damage information, insurance
    Assistance                                         information, and financial information

Source: FEMA Privacy Impact Assessments

Through its disaster assistance application process, FEMA collects PII from applicants
each year. For example, more than 1,500,000 disaster applicants completed the
registration process in 2008. Following Hurricane Katrina, FEMA collected PII from more
than 2,000,000 applicants. Figure 2 illustrates the flow of applicant PII in the disaster
assistance application process. FEMA sends applicant PII to the National Emergency
Management Information System (NEMIS), an information technology (IT) system that

1
 A system of records is a group of any records under the control of any agency from which information is retrieved by
the name of the individual or by some identifying number, symbol, or other identifier assigned to the individual.

www.oig.dhs.gov                                          2                                               OIG-13-87
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


supports disaster response and recovery operations. NEMIS maintains the PII of more
than 2,000,000 current applicants.

Figure 2. Flow of PII in FEMA’s Disaster Assistance Application Process




Source: OIG analysis of FEMA process

Workers deployed to disaster relief sites help survivors by empathizing with them,
explaining available disaster relief programs, and listening carefully to understand their
needs. Workers collect applicant PII to register them for essential services and discuss
their case status. Figure 3 shows the variety of environments where FEMA conducts
disaster relief operations.




www.oig.dhs.gov                               3                                   OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Figure 3. Environments for Disaster Response and Recovery 





Source: FEMA

An agency’s culture of privacy reflects the extent to which its executives, managers, and
employees understand, implement, and enforce its commitment to protect privacy and
comply with legislative and DHS mandates. The promotion of an effective culture of
privacy leads to shared attitudes, goals, and practices that comply with the requirements
for proper handling of PII. The Privacy Office assists system and program managers in
conducting reviews to identify privacy risks related to their specific processes and
implementing an appropriate privacy stewardship framework.2 This framework includes
management accountability, physical or IT safeguards, specialized privacy training, as
well as coordination among privacy, legal counsel, IT, and records management services.

According to the Federal Chief Information Officer (CIO) Council, BestfPractices:ff
ElementsfoffafFederalfPrivacyfProgram, protecting privacy is a core consideration for
every Federal agency, and it is best achieved when it is an integral part of the agency’s
business operations.3 Privacy must be considered as part of policy assessment,
programmatic decision-making, and business operations; privacy should not be an
afterthought. The agency’s managers monitor and enforce Federal privacy laws and
policies to establish effective privacy oversight.


2
  In this report, “system and program manager” refer to the agency employee who is responsible for the operation
and management of the system to which a System of Records Notice pertains. IT system managers, and program
managers are responsible for preparing privacy compliance documentation for technologies, rulemakings, programs,
and activities. These managers may be located at FEMA headquarters, regions, or disaster relief sites.
3
  The Privacy Committee of the Federal Chief Information Officer Council improves agency practices for the protection
of privacy, serving as the interagency coordination group for Senior Agency Officials for Privacy and Chief Privacy
Officers in Federal Government. The Privacy Committee has five subcommittees: Best Practices, Innovation and
Emerging Technology, International, Identity Management, and Development and Education. The Best Practices
Subcommittee is a forum to develop and promote best practices for Federal privacy programs and policies.

www.oig.dhs.gov                                          4                                               OIG-13-87
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


On June 5, 2009, the DHS Deputy Secretary issued the DHSfMemorandumfDesignationfoff
ComponentfPrivacyfOfficers, which directed 10 components, including FEMA, to designate
a senior-level Federal employee as a full-time Privacy Officer who reports directly to the
component head. FEMA has designated a full-time Privacy Officer. The present location
of the Privacy Office is in the Office of the Chief Administrative Officer. Figure 4 shows
how the Privacy Officer reports through the Headquarters Mission Support Bureau to
the FEMA Administrator.

Figure 4. FEMA Privacy Office Placement




Source: OIG analysis of FEMA organizational chart





www.oig.dhs.gov                                      5                          OIG-13-87

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


Results of Audit
          Efforts To Improve Privacy Stewardship

          FEMA has made progess in developing a culture of privacy and addressing
          compliance with privacy requirements. FEMA established its Privacy Office in
          2006. In 2011, the Privacy Officer reorganized staff assignments to promote
          information sharing with staff and other mission support areas, such as legal
          counsel, IT, and records management. The Privacy Office supports key projects,
          such as the Identity Theft Project and the Social Media Program.

          Privacy Office staff perform their responsibilities in accordance with DHS
          Management Instruction 047-01-001, PrivacyfPolicyfandfCompliance. f(See
          appendix D for a list of all privacy office duties.) Key responsibilities include the
          following:

          •	 Provide reports on FEMA’s privacy activities and accomplishments to the DHS
             Privacy Office for reporting to Congress or the Office of Management and
             Budget (OMB);

          •	 Review suspected and confirmed privacy incidents, provide an analysis of
             ways to minimize the loss of PII, evaluate the reasonable risk of harm, and
             ensure that privacy incidents have been properly mitigated, consistent with
             DHS Privacy Office PrivacyfIncidentfHandlingfGuidance;4

          •	 Provide updates on the status of FEMA’s privacy management to the DHS
             Privacy Office, pursuant to the FederalfInformationfSecurityfManagementfActf
             off2002 (FISMA);5

          •	 Advise managers on information sharing that involves the receipt or
             disclosure of PII;

          •	 Oversee FEMA privacy training and provide educational materials consistent
             with mandatory and supplementary training developed by the DHS Privacy
             Office; and

4
  A privacy incident is the loss of control, compromise, or situations in which persons other than authorized users
have access or potential access to PII in usable form, whether physical or electronic, or in which authorized users
access PII for an unauthorized purpose.
5
  The FederalfInformationfSecurityfManagementfActfoff2002fdirects agencies to identify security and privacy risks
inherent in their systems, develop ways to mitigate those risks, and report to OMB the results of ongoing system
assessments.

www.oig.dhs.gov                                            6	                                               OIG-13-87
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       •	 Coordinate with system and program managers, together with the DHS
          Privacy Office and FEMA counsel, to complete privacy compliance analyses
          and documentation for systems of records to meet the requirements of the
          PrivacyfAct.

       The FEMA Privacy Office has a plan and schedule to complete privacy compliance
       analyses for the 74 IT systems that have documented authorization to operate.
       The compliance process begins with a privacy threshold analysis (PTA), a
       required document that serves as the official determination by the DHS Privacy
       Office as to whether a Department program or system has privacy implications.
       Based on the results of the PTA, additional privacy compliance documentation
       may be required, such as a privacy impact assessment (PIA) and system of
       records notice (SORN). As of May 2012, 46 of the 74 (62 percent) IT systems had
       PTAs. The FEMA Privacy Office had improved its privacy scores for the systems
       holding PII from 80 percent in July 2011 to 97 percent in July 2012, by having a
       PIA for 37 of the required 38 (97 percent) systems that required additional
       privacy analysis. A PIA is a decision-making tool used to identify and mitigate
       privacy risks at the beginning of and throughout the development life cycle of a
       program or system. It helps the public understand what PII the Department is
       collecting; why it is being collected; and, how it will be used, shared, accessed,
       and stored.

       In addition, FEMA published SORNs in the FederalfRegister to address 45 systems
       with PII. A SORN is a formal notice to the public that identifies the purpose for
       which PII is collected, from whom and what type of PII is collected, how the PII is
       shared externally (routine uses), and how to access and correct any PII maintained
       by the Department. FEMA’s SORNs and PIAs are also available on the DHS
       Privacy Office’s public website. (Appendix E contains the names and compliance
       status of the systems that affect privacy.) However, as discussed in the following
       sections, FEMA continues to face challenges in identifying a complete inventory
       of PII holdings and ensuring that it is protecting PII component-wide.

       FEMA Needs To Address Compliance With Privacy Requirements

       FEMA needs to take additional measures to ensure that PII is protected. At least
       430 recently identified rogue or unauthorized IT systems are neither in FEMA’s
       inventory nor in compliance with both Federal privacy and security laws and




www.oig.dhs.gov                             7	                                   OIG-13-87
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


         policies.6 The Office of the Chief Information Officer (OCIO), as well as system
         and program managers, need to coordinate with the Privacy Office to plan and
         conduct necessary PTAs, PIAs, and SORNs to meet privacy requirements. By not
         ensuring privacy compliance of IT systems, FEMA may be placing PII at
         unnecessary risk.

         IT Systems Inventory Is Not Complete

         FEMA is hindered in meeting its privacy compliance requirements because it
         does not have an accurate inventory of its IT systems. According to OMB
         Memorandum M-07-16,fSafeguardingfAgainstfandfRespondingftofthefBreachfoff
         PersonallyfIdentifiablefInformation (OMB M-07-16), agencies are required to
         review their holdings of all PII and ensure that they are accurate, relevant,
         timely, and complete.7 FEMA uses a software application, Trusted Agent Federal
         Information Security Management Act (TAFISMA), to track its inventory of
         electronic PII holdings, including the 38 authorized IT systems that have been
         identified as having impacted privacy.8

         However, FEMA’s TAFISMA inventory is incomplete. All holdings of PII have not
         been identified, documented, or authorized. Because there are unauthorized IT
         systems in operation that may not comply with Federal privacy and IT security
         laws and policies, FEMA is at risk of both Federal privacy and IT security laws and
         policies. Specifically, as of April 2012, at least 430 IT systems had been reported
         to the OCIO as unauthorized, in response to the UnauthorizedfInformationf
         TechnologyfSystemsfMemorandum, dated March 2012. (See appendix F.) This
         memorandum directed all FEMA offices to report to the OCIO any systems that
         were in development or operating without government authority. We reviewed
         detailed reports on a sample of 226 of these unauthorized IT systems, which
         appeared to function as 170 administrative systems, 36 financial systems, and 20
         program-related systems. These other systems support the following programs:
         the Federal Insurance and Mitigation Administration, United States Fire
         Administration, Protection and National Preparedness, and the Office of

6
  FEMA’s UnauthorizedfInformationfTechnologyfSystemsfMemorandum (dated March 13, 2012) characterizes rogue
systems as those IT systems that are not properly documented and approved to operate by the Chief Information
Officer and unauthorized systems as those IT systems that do not possess a recognized Federal Government
certification and accreditation. For this report, we use “unauthorized” to refer to either rogue or unauthorized
systems.
7
  IT systems, programs, technologies, pilot projects, information sharing, records, and rule-making may impact privacy
or hold PII.
8
  The DHS Office of the Chief Information Officer uses TAFISMA as its software application to track major IT systems
and general support systems, including those that affect privacy. TAFISMA contains privacy and IT security
compliance documentation.

www.oig.dhs.gov                                           8                                               OIG-13-87
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


         Response and Recovery. The FEMA OCIO and Privacy Officer will need a process
         to ensure that a timely review of privacy status can be made.

         In May 2012, system and program managers had not provided the Privacy Office
         with essential information in a timely manner so that the office could assist them
         with initial privacy compliance analysis and determination. In addition, the
         Privacy Officer requested information from the OCIO on all unauthorized IT
         systems. This information is necessary for the Privacy Office to begin privacy
         compliance analyses. As of August 2012, the Privacy Officer had not received the
         information because OCIO was reviewing the 430 unauthorized IT systems to
         determine whether each system was a duplicate, a subsystem, an application
         already recorded in TAFISMA, or a temporary data extract that could be
         decommissioned or deleted. However, when we asked what would be a more
         timely solution, the FEMA CIO and Privacy Officer recommended that they
         address the unauthorized systems in tandem and resolve the various compliance
         issues posed by them.

         Privacy Threshold Analyses for Unauthorized IT Systems

         The DHS Privacy Office requires the completion of a PTA, using its template,
         when components propose new systems of records or make significant changes
         to existing systems.9 The PTA must be updated every 3 years. The DHS template
         for a PTA will guide the analysis to determine the extent to which each of the
         newly identified IT systems impacts privacy. Then, system and program
         managers must coordinate PTA preparation with the FEMA Privacy Office. The
         DHS Privacy Office will review each PTA to determine the type of information it
         contains, the extent to which it impacts privacy, whether it requires a PIA, and
         whether an existing or new SORN is required.

         Privacy Impact Assessments for Unauthorized IT Systems That Affect Privacy

         DHS components must conduct PIAs of all systems that collect, use, maintain, or
         disseminate PII, consistent with the E-GovernmentfActfoff2002. According to
         DHSfPrivacyfOfficefPolicyfGuidancefMemorandumf2008-02, the completion of
         the DHS template for a PIA requires analysis, including that of technologies
         employed, life cycle of the PII in the system, and specific privacy risks and their
         mitigation.


9
 The privacy threshold analysis establishes the intended purpose of the system, identifies the system owner, and
proposes types of PII collected and maintained by the system, such as the presence of Social Security numbers.

www.oig.dhs.gov                                          9                                               OIG-13-87
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


         The FEMA Privacy Office estimates that it may need 4 to 6 weeks to assess each
         of those unauthorized IT systems that the DHS Privacy Office determines will
         require a PIA. The assessment will necessitate comments and analysis by system
         and program managers, legal counsel, OCIO, and the Headquarters Mission
         Support Bureau, as well as its workers in each of the 10 regions who perform
         onsite services for IT, acquisitions, security, and records management. Staff
         from external agencies may be involved, such as the DHS Privacy Office’s
         compliance division, agencies that receive or share PII with FEMA, or OMB.10

         System of Records Notices for Unauthorized IT Systems

         The PrivacyfAct requires agencies to issue a public notice for every system of
         records under their control. Based on a review of the PTAs, the DHS Privacy
         Office determines which of the unauthorized IT systems will require a new SORN
         or will be covered by an existing SORN.

         The FEMA Privacy Office estimates that it may take 4 to 6 weeks to complete
         each SORN that will be required for the identified unauthorized IT system. The
         review will require information from system and program managers, legal
         counsel, OCIO, and the Headquarters Mission Support Bureau. Also, staff from
         the DHS Privacy Office and DHS Office of General Counsel will be involved.

         Recommendation

         We recommend that the Deputy Administrator of FEMA:

         Recommendation #1:

         Implement a plan and timeline to identify and assess 430 unauthorized systems,
         and complete appropriate documentation to mitigate privacy risks in the
         unauthorized systems that contain PII.

         Management Comments and OIG Analysis

         We obtained written comments on a draft of this report from the Associate
         Administrator of FEMA’s Office of Policy, Program Analysis and International
         Affairs. (See appendix B.)

10
  OMB clearance under the PaperworkfReductionfAct off1995f(44 U.S.C. 3501 et seq.) is required for FEMA to conduct
federally sponsored data collections involving 10 or more respondents unless an exemption applies. The general
purpose of the PaperworkfReductionfAct is to minimize the paperwork burden created by the Federal Government in
collecting information.

www.oig.dhs.gov                                        10                                              OIG-13-87
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



       FEMA concurred with our findings and recommendation #1. FEMA’s Office of
       Chief Information Officer confirmed that it is making progress with its review of
       the unauthorized systems and is anticipating that less than 430 unauthorized
       systems will need to undergo further privacy compliance analysis and
       documentation. We consider this recommendation open and unresolved.


       Privacy Protection Weak at Disaster Relief Sites

       FEMA has not taken adequate steps to mitigate privacy risks to PII collected at its
       disaster relief sites. During our audit, we identified instances in the disaster
       assistance process where applicant PII was vulnerable at all 24 disaster relief
       sites that we visited in Alabama, California, Georgia, Indiana, Kentucky,
       Maryland, Texas, and Virginia. (See appendix A for details about the sites.) To
       address these vulnerabilities, FEMA needs to conduct privacy assessments at
       disaster relief sites. It also needs to provide specialized field training for disaster
       workers who handle PII.

       Privacy Safeguards Needed

       The PrivacyfAct requires agencies to implement technical, physical, and
       administrative safeguards to ensure the security and confidentiality of records.
       These safeguards also should protect against any anticipated threats or hazards
       that could result in substantial harm to individuals from whom information is
       collected. Specifically, PII could be compromised when it was overheard when
       applicants talked to disaster workers in person or over the telephone, or when
       PII was entered into laptops that do not have encryption software, left
       unsecured in stacks of paper awaiting application processing, and disposed of by
       using improper equipment. We identified the lack of the following privacy
       safeguards during our visits to 24 disaster relief sites:

       •	 IT Safeguards: Regional IT managers and specialists are responsible for
          deploying encryption software to the laptops that are used at disaster relief
          sites. They estimated that less than 25 percent of the laptops that disaster
          workers used to collect PII had encryption software. We also observed that
          the laptops at 17 of 24 disaster relief sites did not have encryption software
          installed. Even if encryption software was installed, disaster workers do not
          always encrypt email attachments that contain PII. For example, a contractor
          emailed an unencrypted spreadsheet of 5,070 applicants’ PII to an
          unintended recipient’s email address. The PII included full names, addresses,
www.oig.dhs.gov                              11                               	     OIG-13-87

                          OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


           and insurance payout amounts for applicants participating in the National
           Flood Insurance Program. The contractor later received training on
           encrypting email attachments, and the Privacy Office worked with the field
           office to notify the affected applicants.

           Further, at all 24 sites, we observed instances of disaster workers not
           securing their laptops when stepping away from them. During a 3-year
           period (2010 to 2012), FEMA reported that 73 laptops were either stolen or
           lost; PII on these laptops could be stolen, lost, or compromised.

       •	 Physical Safeguards: At all 24 disaster relief sites, we observed unsecured
          paper copies of applicant PII awaiting disposal or entry into NEMIS. In
          addition, 15 of 24 disaster relief sites either lacked cabinets or had storage
          equipment that did not meet privacy and security requirements. Disaster
          workers at four sites reported taking applicant files to their hotels to
          safeguard PII because they did not have locked storage capacity at the sites.
          Further, disposal equipment at these sites did not meet privacy and security
          requirements, as specified byfFEMAfStandardfOperatingfProcedure:ffElectronicf
          andfHardfCopyfMediafSanitizationfandfRelease. Figure 5 shows examples of
          unsecured storage and inadequate disposal of applicant PII.

           Figure 5. Inadequate Physical Safeguards at Disaster Relief Sites




           Source:ffOIG

       •	 Administrative Safeguards: Regional offices identify the location for disaster
          relief sites and send preassembled “Disaster Go” kits to the field managers
          who are setting up the sites. Each regional office customizes the content and

www.oig.dhs.gov                           12                             	     OIG-13-87

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


           materials that are included in the kits, based on the nature of the disaster
           and the particular environment of the specified disaster relief site. As shown
           in figure 6, the following are examples of two types of Disaster Go kits.
           However, regional and field managers had not considered adding pertinent
           privacy materials into these kits.

           Figure 6. Examples of Disaster Go Kits




           Source: OIG

           a.	 Sign kits help the disaster applicants locate the FEMA disaster recovery
               center. However, the inclusion of some privacy-related materials would
               help increase awareness of the need to protect applicant PII, such as the
               DHSfPrivacyfOffice’sfHowfTofSafeguardfPersonallyfIdentifiablef
               InformationfFactsheet, privacy posters, and instructions for workers on
               encrypting email attachments.

           b.	 Contracting kits include paper copies of contract forms for use when
               electricity, computers, or Internet access is unavailable. However, this kit
               does not contain privacy clauses from FEMA or the FederalfAcquisitionf
               Regulation that establish contractors’ privacy responsibilities and
               accountability.

       Privacy Assessments Needed at Disaster Relief Sites

       Periodic privacy assessments can help managers reduce risk and build
       accountability for privacy compliance. Specifically, FEMA managers need to
       conduct privacy assessments to determine where specific privacy safeguards can
       be incorporated when they establish disaster relief sites and hire staff in
       response to a disaster. Annually, FEMA faces the challenge of protecting PII when
       disaster workers collect, use, maintain, or disseminate this information for more
       than 1,000,000 applicants under varying work conditions and environments.
       According to OMBfMemorandumfM-12-20,fFYf2012fReportingfInstructionsfforfthef

www.oig.dhs.gov                             13                             	      OIG-13-87

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


         FederalfInformationfSecurityfManagementfActfandfAgencyfPrivacyfManagement,
         agencies are required to identify and address gaps in privacy compliance,
         management, operational, and technical controls by conducting regular
         assessments. In addition, according to ThefFairfInformationfPracticefPrinciplesfatf
         Work, managers must build accountability into their programs through activities
         such as periodic reviews.11 (See appendix G for the eight privacy principles.)
         Regardless of the location of the disaster relief site, which may be in a building,
         stadium, tent, mobile unit, or another accommodation, FEMA work processes
         and environments must meet privacy requirements.

         Field managers whom we interviewed were concerned that the chaotic nature of
         the disaster response and relief work could place PII at risk, but had not
         considered the option of conducting a privacy assessment. For example, in 2011,
         cadres of temporary employees, contractors, and volunteers assisted applicants
         at nearly 500 disaster relief sites for periods ranging from 1 day to 3 months.
         However, FEMA has not conducted privacy assessments to help determine the
         risks and extent to which privacy protections are needed at these sites. Until
         field managers identify and mitigate the privacy vulnerabilities in processes,
         flow, and handling of applicant PII during higher risk operations and at disaster
         relief sites, FEMA will continue to expose PII to risk.

         Specialized Field Training Needed for Disaster Relief Workforce

         More than 10,400 temporary workers (disaster workers) process the PII of
         disaster survivors. FEMA faces challenges in protecting PII if this temporary work
         force has not received appropriate privacy training. Specifically, FEMA has not
         provided specialized field training to workers on how to protect and control
         applicant PII when collecting and handling it after a disaster. According to OMB
         M-07-16, specialized or advanced training is an effective way to improve
         employee understanding of privacy responsibilities in their daily work activities.

         At the 24 disaster relief sites that we visited, managers explained that training for
         disaster workers is often not completed because there is little time between
         reporting for duty and when they must begin helping disaster survivors. In
         addition, managers noted that the standardized privacy training is web-based
         and Internet connectivity is not always available following a disaster. Further,
         according to field managers and disaster workers we interviewed, the content of

11
  DHSfPrivacyfOfficefPolicyfGuidancefMemorandumf2008-02frequires reviews of processes, programs, IT systems,
rule-making, or technologies that may impact privacy. In addition, the DHS Privacy Office also exercises its authority
under Section 222 of thefHomelandfSecurityfAct to ensure that technologies sustain and do not erode privacy
protections, through the conduct of privacy compliance reviews.

www.oig.dhs.gov                                           14                                                OIG-13-87
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


         standardized, FEMA-wide privacy training was too general to address the variety
         of conditions at disaster relief sites.

         Without specialized field training, workers do not understand fully how to apply
         proper privacy practices and safeguards while performing services at disaster
         relief sites. Fifty-eight percent (103 of 177) of field managers we interviewed
         stated that specialized field training consistent withfthe DHSfPrivacyfOfficef
         HandbookfforfSafeguardingfSensitivefPersonallyfIdentifiablefInformation is
         needed to help disaster workers in protecting PII during disaster relief operations.
         In addition, 46 percent of survey comments from field managers and employees
         recommended specialized privacy training for the disaster relief workforce.12

         When disaster workers are not adequately trained to safeguard PII while
         performing disaster relief operations, privacy incidents can occur. For example,
         as illustrated in figure 7, in October 2008, a disaster worker who had not
         received specialized field training on handling PII violated privacy requirements
         when acquiring a mailing distribution list to communicate with disaster
         applicants. He created an unauthorized copy of a system of records by
         downloading the PII of 13,000 applicants from the official database into
         spreadsheets. He did not encrypt the spreadsheets when he transmitted them
         over the Internet to an unauthorized third party, who used them to create the
         mailing distribution list.

         Figure 7. FEMA Privacy Incident




         Source: OIG analysis of FEMA Privacy Incident Report, reported October 2008


12
  In January 2012, we emailed employees a survey on FEMA’s culture of privacy that included questions on topics such
as integrating privacy safeguards in daily operations. (See appendix H for the survey methodology.)

www.oig.dhs.gov                                          15                                               OIG-13-87
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       The disaster worker reported his actions as a privacy incident, but he was unable
       to confirm whether the third party had destroyed the spreadsheets and the
       mailing distribution list. After an investigation, FEMA compelled the third party
       to destroy the PII on his computer. FEMA issued a written reprimand to the
       disaster worker and required him to take additional privacy training on
       safeguarding PII.

       In October 2012, a disaster worker caused another incident at a disaster relief
       site when he created a spreadsheet that contained the PII (names and Social
       Security numbers) of 1,000 other disaster workers and saved it on the local
       network. The PII was accessible to all users on the local network because the
       spreadsheet was not password protected. When another disaster worker
       opened the file and realized that the spreadsheet contained PII, he reported it as
       a privacy incident.

       Survey Comments

       We received 771 comments from survey respondents working at disaster relief
       sites who recommended numerous ways to make privacy training more useful
       and applicable to their work environments. Figure 8 presents the distribution of
       responses by topic.

       Figure 8. Field Recommendations for Privacy Training and Awareness




       Source: OIG

       Field respondents to our survey indicated that specialized training and
       supplementary privacy awareness activities are necessary to improve current


www.oig.dhs.gov                            16                                   OIG-13-87

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


       privacy training content, delivery methods, frequency, and effectiveness. The
       following are examples of improvements suggested by survey respondents:

       •	 Specialized training customized to their duties, which would use realistic
          examples and scenarios.

       •	 Increased privacy awareness activities, such as routine emails discussing core
          privacy principles and posters placed near frequently visited work areas (such
          as printers and file cabinets).

       •	 Improved privacy training delivery, such as in-person training, privacy
          workshops, informative online videos, and videoconferencing.

       •	 More frequent privacy training, such as scheduled, privacy-focused staff
          briefings and meetings related to recent projects during which supervisors
          incorporate practical privacy discussions.

       Recommendations

       We recommend that the Deputy Administrator of FEMA:

       Recommendation #2:

       Conduct privacy assessments of disaster relief operations to improve
       accountability and to meet privacy requirements.

       Recommendation #3:

       Implement specialized privacy training for the disaster relief workforce.

       Management Comments and OIG Analysis

       FEMA concurs with recommendation #2. The FEMA Privacy Officer is developing
       a framework for conducting privacy compliance site inspections, to include
       disaster relief operations. We consider this recommendation open and
       unresolved.

       FEMA concurs with recommendation #3. The FEMA Privacy Officer is developing
       specialized privacy training. We consider this recommendation open and
       unresolved.


www.oig.dhs.gov                            17                             	        OIG-13-87

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security



       FEMA-wide Privacy Training and Awareness


       Training and awareness activities help build an effective culture of privacy in the
       workplace. However, managers do not have an effective method to monitor the
       completion of FEMA’s standardized privacy training. In addition, managers and
       employees suggested ways that FEMA could supplement privacy training
       through creative activities that reinforce employee privacy responsibilities.

       Enforce Standardized, FEMA-wide Privacy Training

       FEMA has implemented a standardized privacy training course, but it does not
       have an effective tracking system to monitor whether employees have
       completed the training requirement. This situation makes it difficult to enforce
       the privacy training requirement. DHSfManagementfInstructionf047-01-001,
       PrivacyfPolicyfandfCompliance, requires initial privacy training and annual
       refresher training for all managers, employees, and contractors. Although the
       FEMA workforce must complete the web-based course (IS-105), only 1,070
       employees were reported to have completed the course. In addition, FEMA did
       not use the DHS Privacy Office’s PrivacyfatfDHS:ffProtectingfPersonalfInformation,
       which was created for department-wide implementation this year to meet the
       mandatory privacy training requirement. This course provides a broad overview
       of privacy responsibilities, privacy principles, legal requirements, and penalties.

       FEMA cannot efficiently identify and track employees who have not completed
       the required course. The Headquarters Office of Distance Learning did not
       purchase this capability because of budgetary constraints when it instituted the
       FEMA Employee Knowledge Center (FEKC) in February 2012. FEKC tracks only
       those who have completed the course. Therefore, to enforce the requirement,
       managers must compare personnel rosters, contractor lists, and the FEKC list to
       determine those who have not completed the course.

       In addition, there is no centralized roster of FEMA personnel. Conducting a
       manual review is more complicated because thousands of workers and
       contractors are assigned to different managers, regions, or disaster relief sites
       each year. Field managers reported that they cannot enforce the training
       requirement because it is too time-consuming to determine which workers have
       not completed the course. In addition, Headquarters and regional training units
       declined to assist managers in performing manual reviews because of the
       amount of required work.


www.oig.dhs.gov                            18                                     OIG-13-87

                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


       Survey Respondents Suggest Privacy Improvements

       Survey respondents suggested ways that FEMA can improve its culture of
       privacy. We received 4,932 individual comments and suggestions from survey
       respondents on ways that FEMA could be more effective in protecting PII. Figure
       9 shows the distribution of survey respondents’ comments in five categories.

       Figure 9. Improvements for FEMA Culture of Privacy Development




       Source: OIG

       According to survey respondents, FEMA could increase manager and employee
       awareness of privacy requirements. For example, they recommended that
       managers enforce privacy protections (32 percent of comments) and
       supplement privacy training to improve overall employee awareness of the
       importance of protecting PII (27 percent). In addition, respondents suggested
       privacy campaigns, periodic broadcast messages, and emails that remind
       employees on how to apply privacy policies on their jobs. Respondents also
       recommended that managers review and improve physical safeguards for PII
       (19 percent), identify and address specific privacy risks in different employee
       work environments (12 percent), and increase IT security for PII (10 percent).

       Recommendation

       We recommend that the Deputy Administrator of FEMA:




www.oig.dhs.gov                           19                                   OIG-13-87

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


       Recommendation #4:

       Improve managers’ capability to monitor and enforce the completion of the
       standardized, FEMA-wide privacy training requirements.

       Management Comments and OIG Analysis

       FEMA concurs with recommendation #4. The FEMA Privacy Officer and the
       FEMA Office of Training and Development are developing a more comprehensive
       compliance element into the annual privacy training. We consider this
       recommendation open and unresolved.




www.oig.dhs.gov                          20                                 OIG-13-87

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department. Our objectives were to determine
whether FEMA has plans and activities that instill a culture of privacy that protects
sensitive PII and ensures compliance with Federal privacy laws and regulations. As
background for this audit, we reviewed Federal laws and guidance related to FEMA’s
responsibilities for privacy protections. In addition, we interviewed officials from the
DHS Privacy Office on FEMA’s privacy compliance status and reporting. Also, we
reviewed testimonies, documentation, and reports about FEMA’s privacy, IT security,
and field program management.

As part of our fieldwork, we interviewed FEMA’s Privacy Officer and 188 managers,
employees, and disaster workers. We conducted field site evaluations at 3 national
processing service centers (which included call centers), 1 mail center, 3 regional offices,
3 joint field offices, 1 initial operating facility, and 13 disaster recovery centers to
determine areas for improvements in privacy controls. Also, we emailed a survey to
FEMA employees to obtain their recommendations for improving their understanding of
privacy and for an indication of their privacy knowledge. In response, we received 4,932
individual comments on privacy risks, integrating privacy in daily operations, and
challenges in FEMA’s privacy stewardship. (See appendix H for details.)

We analyzed training issues and FEMA guidance on privacy, IT, and records
management to determine whether they met Federal privacy and security laws and
regulations. (See appendix C for references.) We also reviewed PTAs, PIAs, and SORNs
for 74 operational IT systems in the FEMA inventory. (See appendix E for details.) In
addition, we interviewed IT professionals at FEMA headquarters and disaster relief sites,
as well as reviewed reports regarding 430 rogue or unauthorized IT systems.

We conducted this performance audit between January and October 2012 pursuant to
the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives.

www.oig.dhs.gov                             21                                     OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                 U.S. I>tplrtml'nlOr Ilomtll nd   S«uril~'
                                                                                 Washington. I>C 200172




                                             FEB 0 1 2013

          MEMORANDUM FOR:              Frank Deffer
                                       Assistant Inspector General
                                       Information Technology Audits
                                       Department of Homeland Securi ty

          FROM:                        Dav;d J. Kaufman             \\\,.~
                                                                   .{
                                       Associate Adminislralor for   t. .r ')
                                       Policy, Program Analysis and International Affairs

          SUBJECT:                      Federal Emergency Managemelll Agency Pril'acy Siewardship -
                                        For Official Use Only
                                        DIG Project No. 11-06.J-ITA-FEMA

          This memorandum serves as the Federal Emergency Management Agency's (FEMA) official
          written response to the Federal Emergency M{magellllmi Agency Privacy Stewardship - For
          Official Use Ol1ly DIG Project No. 12-064-l1i J-FElvlA.

          FEMA has made significant progress, in the last year alone, in developing a cu lture of privacy
          and addressing compliance with privacy requirements. Tn October 2011, FEMA named a new
          Privacy Officer to lead FEMA's effort to create a culture of privacy awareness and compliance
          throughout the Agency. Soon after his arrival , the FEMA Privacy Officer updated the FEMA
          Privacy Office' s mission statement and established a new vision w ith attendant program
          objectives. Also since then, the FEMA Privacy Officer has sat on FEMA ' s Policy Working
          Group (PWG) to ensure that all polices are developed with privacy interests considered and to
          minimize the impact on individual privacy by necessary modifications.

          Last year alone, the FEMA Privacy Office increased FEMA ' s FISMA Privacy Score for SORNs
          from 98 % to 100 % and P IAs sim ilarly increased from 79 % to 100 %. This was achieved
          through the FEMA Privacy Officer' s FISMA Pri vacy Compliance Surge to bring all known
          FEMA systems into compliance with privacy laws and related Office of Management and
          Budget (OMB), DHS, and FEMA privacy policies and gu idance. This effort resulted in FEMA's
          achievement of a 100 % FISMA Privacy Score for both PIAs and SORNs and this work was
          completed by June 30, 2012.

          FEMA' s privacy incident response and mitigation continues to be expeditious, thorough, and
          complete. FEMA's d iverse mission requires the use of a lot of information about individuals as
          we work to respond to and provide relief for disaster victims.




www.oig.dhs.gov                                           22                                                                 OIG-13-87

                                OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security




          FEMA privacy training continues to develop and grow and that will continue this year with
          specific training for the disaster relief workforce. Last year, the FEMA Privacy Officer
          revamped the mandatory Annual Privacy Awareness Training module and implemented it as
          both an instructor-led and on-line independent study course; hosted Privacy Compliance
          Foundations training sessions for IT security professionals, program and project management
          professionals, system managers, and other personnel who handle or are responsible for ensuring
          that electronic systems are in compliance with the privacy legal framework; and continues initial
          privacy awareness training on a weekJy basis to all newly hired FEMA employees and
          contractors. We are confident, as an Agency, that we are moving in the right direction with
          privacy and we agree that work remains to be done.

          Below are our specific comments on the draft report and specific responses to each
          reconunendation.

          RetommendatioD 1:
          That the Deputy Administrator of FEMA implement a plan and timeline to identify and mitigate
          privacy risks in the 430 unauthorized systems that contain PII.

          FEMA Response: Concur
          FEMA's ChiefInformation Officer who. under the Federal Information Security Management
          Act (FISMA). holds the responsibility for maintaining the FEMA system inventory, is reviewing
          the systems identified during this audit for integrity in addition to the overall accuracy of the
          inventory. An analysis conducted by the FEMA OCIO has revealed that the actual nwnber of
          unauthorized systems is far less than 430, and of those remaining, even fewer contain personally
          identifiable infonnation (PH). The FEMA Privacy Officer is working with the FEMA CIO to
          mitigate the privacy risks associated with the actual nwnber of systems that contain pn. "This is
          being done by using the established DHS Privacy Office compliance process that includes the
          privacy legal framework. This is done by conducting a Privacy Threshold Analysis (PTA) first.
          Of those systems that contain PII, a determination is made as to whether a Privacy Impact
          Assessment (PIA) is needed, or whether coverage under an already established PIA exists, and
          whether a System of Records Notice (SORN) is needed. or whether coverage under an already
          established SORN exists. 430 PTAs, PIAs, and SORNs are not needed or required.


          Recommendation 2:
          That the Deputy Administrator of FEMA direct the FEMA Privacy Officer to conduct privacy
          assessments of disaster relief operations to improve accountability and to meet privacy
          requirements.




                                                          2




www.oig.dhs.gov                                          23                                                   OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




          FEMA RespoDse: Concur
          Prior to the conclusion of this audit. the FEMA Privacy Officer had already begun developing a
          framework for conducting privacy compliance site inspections applicable to all FEMA locations,
          including disaster relief operations, to improve accountability and to meet privacy requirements.


          Recommendation 3:
          That the Deputy Administrator implement specialized privacy training for the disaster relief
          workforce.

          FEMA RespoDse: Concur
          Prior to the conclusion of this audit. the FEMA Privacy Officer had already begun developing
          specialized privacy training for the diverse FEMA mission, to include specialized privacy
          training for disaster relief workforce.


           Recommendation 4:
          That the Deputy Administrator ofFEMA improve managers' capability to monitor and enforce
          the completion of the standardized, FEMA-wide privacy training requirements.

          FEMA RespoDse: Concur
          Prior to the conclusion of this audit, the FEMA Privacy Officer had already begWl working with
          the FEMA Training and Development Office to develop a more comprehensive compliance
          element into the annual privacy training.

          Thank you for the work that you and your team did to better infonn us throughout this audit. We
          look forward to the final report. Please direct any questions regarding this response to Gary
          McKeon, FEMA's Branch Chief Audit Liaison Office, at 202-646-1308.




                                                            J




www.oig.dhs.gov                                            24                                                 OIG-13-87

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


Appendix C
Legislation, Memoranda, Directives, and Guidance Related to
the FEMA Privacy Stewardship Audit
                                                         LEGISLATION

PrivacyfActfoff1974,fasfamended, 5 U.S.C. § 552a.
http://www.gpo.gov/fdsys/pkg/USCODE-2011-title5/pdf/USCODE-2011-title5-partI-chap5-subchapII-sec552a.pdf

E-GovernmentfActfoff2002, Public Law 107-347, 116 Stat. 2899.
http://www.gpo.gov/fdsys/pkg/PLAW-107publ347/pdf/PLAW-107publ347.pdf
f
FederalfInformationfSecurityfManagementfActfoff2002, 44 U.S.C. § 3541, et seq.
http://csrc.nist.gov/drivers/documents/FISMA-final.pdf

ImplementingfRecommendationsfoffthef9/11fCommissionfAct off2007, Public Law 110-53, 121 Stat. 266, 360.
http://www.nctc.gov/docs/ir-of-the-9-11-comm-act-of-2007.pdf

HomelandfSecurityfActfoff2002,fasfamended, Public Law 107-296, 116 Stat. 2135, 2179.
http://www.gpo.gov/fdsys/pkg/PLAW-107publ296/pdf/PLAW-107publ296.pdf

PaperworkfReductionfActfoff1995, 44 U.S.C. § 3501, et seq.
http://www.gpo.gov/fdsys/pkg/PLAW-104pub13/html/PLAW-104publ13.htm

                                                     OMB MEMORANDA

OMBfM-07-16: SafeguardingfAgainstfandfRespondingftofthefBreachfoffPersonallyfIdentifiablefInformation (May 22, 2007).
http://www.whitehouse.gov/omb/memoranda/fy2007/m07-16.pdf

OMBfM-11-29: ChieffInformationfOfficerfAuthorities (August 8, 2011).
http://www.whitehouse.gov/sites/default/files/omb/memoranda/2011/m11-29.pdf

OMBfM-12-20:ffFYf2012fReportingfInstructionsfforfthefFederalfInformationfSecurityfManagementfActfandfAgencyfPrivacyf
Managementf(October 2, 2012).
http://www.whitehouse.gov/sites/default/files/omb/memoranda/2012/m-12-20.pdf

                                                 DIRECTIVES AND GUIDANCE
f

DHSfManagementfDirectivefNumberf047-01: PrivacyfPolicyfandfCompliancef(July 7, 2011). (No External Link Available) 


DHSfManagementfInstructionfNumberf047-01-001: PrivacyfPolicyfandfCompliancef(July 25, 2011). (No External Link Available) 


DHSfMemorandum: DesignationfoffComponentfPrivacyfOfficers (June 5, 2009). (No External Link Available)
f
DHSfPrivacyfOfficefPrivacyfPolicyfGuidancefMemorandumfNumberf2008-02: DHSfPolicyfRegardingfPrivacyfImpactfAssessmentsf
(December 30, 2008). http://www.dhs.gov/xlibrary/assets/privacy/privacy_policyguide_2008-02.pdf
f
DHSfPrivacyfOffice:ffHandbookfforfSafeguardingfSensitivefPersonallyfIdentifiablefInformationfatfthefDepartmentfoffHomelandf
Security (March 2012). http://www.dhs.gov/xlibrary/assets/privacy/dhs-privacy-safeguardingsensitivepiihandbook-march2012.pdf

DHSfPrivacyfOffice: GuideftofImplementingfPrivacy (June 2010).
http://www.dhs.gov/xlibrary/assets/privacy/dhsprivacyoffice-guidetoimplementingprivacy.pdf

DHSfPrivacyfOffice: PrivacyfIncidentfHandlingfGuidance (January 26, 2012).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_pihg.pdf



www.oig.dhs.gov                                                25                                                  OIG-13-87

                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security

DHSfPrivacyfOffice: PrivacyfTechnologyfImplementationfGuide (August 16, 2007).
http://www.dhs.gov/xlibrary/assets/privacy/privacy_guide_ptig.pdf
f

DHSfPrivacyfOffice: PrivacyfImpactfAssessments:ffThefPrivacyfOfficefOfficialfGuidance (June 2010). 

http://www.dhs.gov/xlibrary/assets/privacy/privacy_pia_guidance_june2010.pdf
f

DHSfPrivacyfOffice:ffSystemfoffRecordsfNotices:ffThefPrivacyfOffice OfficialfGuidance (April 2008). 

http://www.dhs.gov/xlibrary/assets/privacy/privacy_guidance_sorn.pdf


DHSfManagementfDirectivefNumberf0007.1:ffInformationfTechnologyfIntegrationfandfManagement (March 15, 2007). (No External
Link Available)

DHSf4300A: SensitivefSystemsfPolicyfDirectivefVersionf9.0.2 (March 19, 2012). (No External Link Available)f

NationalfInstitutefoffStandardsfandfTechnologyfSpecialfPublicationf800-88: GuidelinesfforfMediafSanitizationf(September 2006).
http://www.nist.gov/customcf/get_pdf.cfm?pub_id=50819

FederalfCIOfCouncil,fPrivacyfCommittee: BestfPractices:ffElementsfoffafFederalfPrivacyfProgramfVersionf1.0 (June 2010).
http://www.cio.gov/Documents/Elements-Federal-Privacy-Program-v1.0_June-2010.pdf

U.S.fChieffInformationfOfficer: 25fPointfImplementationfPlanftofReformfFederalfInformationfTechnologyfManagementff
(December 9, 2010). http://www.cio.gov/documents/25-Point-Implementation-Plan-to-Reform-Federal%20IT.pdf

                                                       FEMA DOCUMENTS

44fC.F.R.fCh.fI,fSubpartfE, ReportfonfNewfSystemsfandfAlterationsfoffExistingfSystems,fSectionf6.70 (October 1, 2011).
http://www.gpo.gov/fdsys/pkg/CFR-2011-title44-vol1/pdf/CFR-2011-title44-vol1-sec6-70.pdff

FEMAfStandardfOperatingfProcedure: ElectronicfandfHardfCopyfSanitizationfandfRelease (September 2, 2011).ff(No External Link
Available)

FEMAfDirectivef140-1: InformationfTechnologyfSecurityfPolicy (January 14, 2012). (No External Link Available)

FEMAfDirectivef140-2: InformationfTechnologyfIntegrationfandfManagement (February 10, 2012). (No External Link Available)

FEMAfMemorandum: UnauthorizedfInformationfTechnologyfSystems (March 13, 2012). (No External Link Available)

FEMAfMemorandum: DelegatingfAuthoritiesftofRegionalfAdministrators (February 6, 2012). (No External Link Available)

FEMAfMemorandum: RegionalfStaffingfInitiative (August 4, 2010). (No External Link Available)f




www.oig.dhs.gov                                                  26                                                      OIG-13-87

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


Appendix D
Component-Level Privacy Officer Designation and Duties
Figure 10. Component-Level Privacy Officer Designation and Duties
                      COMPONENTS TO DESIGNATE PRIVACY OFFICERS

            �    Federal Emergency Management Agency
            �    National Protection and Programs Directorate
            �    Office of Intelligence and Analysis
            �    Science & Technology Directorate
            �    Transportation Security Administration
            �    U.S. Citizenship and Immigration Services
            �    U.S. Coast Guard
            �    U.S. Customs and Border Protection
            �    U.S. Immigration and Customs Enforcement
            �    U.S. Secret Service
Source: DHS Designation Memorandum, June 5, 2009 

                          COMPONENT PRIVACY OFFICER DUTIES
  Maintain an ongoing review of component IT systems, technologies, rulemakings, programs, pilot
  projects, information sharing, and other activities to identify collections and uses of PII and any other
  attendant privacy impacts.
  Coordinate with system and program managers, together with the DHS Privacy Officer and component
  counsel to complete required privacy compliance documentation.
  Review component policies and directives to ensure compliance with DHS privacy policy, privacy laws
  applicable to DHS, and Federal Government-wide privacy policies.

  Oversee component implementation of DHS privacy policy.

  Provide the DHS Privacy Officer all component information necessary to meet the Department’s
  responsibilities for reporting to Congress or OMB on DHS activities that involve PII or otherwise impact
  privacy.
  Oversee component’s implementation of procedures and guidance issued by the DHS Privacy Officer for
  handling suspected and confirmed privacy incidents; notify the DHS Privacy Officer and other
  Department offices of such incidents as component procedures dictate; ensure that privacy incidents
  have been properly mitigated; and recommend that the DHS Privacy Officer close privacy incidents upon
  mitigation.
  Process privacy complaints from organizations, DHS employees, and other individuals, whether
  received directly or by referral from the DHS Privacy Officer.
  Oversee component privacy training and provide educational materials, consistent with mandatory and
  supplementary training developed by the DHS Privacy Officer.
  Maintain an ongoing review of component data collection forms, whether electronic or paper-based, to
  ensure compliance with the Privacy Act Statements and implementation of regulations and guidelines.
  Review component record retention schedules for paper or electronic records that contain PII to ensure
  privacy interests are considered in the establishment of component record disposition policies.
  Advise component on information sharing activities that involve the disclosure or receipt of PII and
  participate in the review of Information Sharing Access Agreements.
  Document and implement procedures for identifying, processing, tracking, and reporting on Privacy Act
  Amendment requests.
Source: DHS Management Instruction Number 047-01-001

www.oig.dhs.gov                                       27                                              OIG-13-87
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


Appendix E
TAFISMA Systems That Affect Privacy: Compliance Status
Privacy protections must be incorporated during the development and operation of
systems and programs that affect privacy. DHS privacy policy guidance requires that
components conduct a privacy threshold analysis (PTA) when they propose a new
system of records or make significant changes to an existing system. The analysis of
each approved system must be updated every three years. DHS components are to
conduct privacy impact assessments (PIA) of all systems that collect, use, maintain, or
disseminate PII, consistent with the E-GovernmentfActfoff2002. The PrivacyfActfoff1974
requires agencies to issue public notice for systems of records under their control. A
system of records notice (SORN) informs the public about what, why, and how PII are to
be collected, retained, shared, accessed, and corrected. The status of FEMA’s privacy
compliance analysis and documentation may affect how well it addresses privacy issues
and mitigates risks to PII.

Figure 11. FEMA PII Compliance Status for 46 IT Systems
          Legend                                                   Description
     PIA/SORN Name
                                       Privacy impact assessment or system of records notice completed.
     Date of Document
        Completed
                                                      Privacy threshold analysis completed.
     Date of Document
        Completed
                                                Privacy threshold analysis completed but expired.
     Date of Document
      Not Completed                               Privacy impact assessment not completed.
      Not Applicable                  Privacy impact assessment or system of records notice not required.


                                    Privacy
                                                    Privacy Impact
                                 Threshold                                       System of Records Notice
   Name of IT System                                 Assessment
                                  Analysis                                              (Required: 45)
                                                    (Required: 38)
                              (Required: 46)
Disaster Response and Recovery Programs Information Technology Systems and Associated
Applications support the efforts of FEMA’s disaster assistance mission for individuals and families.
Collections may include name, address, Social Security number, birthdates, telephone number, National
Emergency Management Information System (NEMIS) registration ID, disaster-related damage information,
insurance information, financial information, education records, vehicle identifiers, criminal history information,
and information to verify identity.
   Disaster Assistance
                                 Completed       DHS/FEMA/PIA-012              DHS/FEMA-008, 74 FR 48763
  Improvement Program
                                Jan 18, 2011         Dec 31, 2008                        Sep 24, 2009
          (DAIP)
   National Emergency
   Family Registry and           Completed       DHS/FEMA/PIA-14(a)            DHS/FEMA-008, 74 FR 48763
     Locator System              Mar 8, 2010          Jul 14, 2011                       Sep 24, 2009
        (NEFRLS)
  Emergency Notification         Completed                                       DHS/ALL-014, 73 FR 61888
                                                     Not Applicable
      System (ENS)              Oct 21, 2010                                             Oct 17, 2008



www.oig.dhs.gov                                        28                                             OIG-13-87

                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                Privacy
                                                   Privacy Impact
                               Threshold                                      System of Records Notice
  Name of IT System                                 Assessment
                                Analysis                                           (Required: 45)
                                                   (Required: 38)
                             (Required: 46)
     NEMIS Individual           Completed         DHS/FEMA/PIA-027             DHS/FEMA-008, 74 FR 48763
         Assistance            Dec 29, 2011          June 29, 2012                     Sep 24, 2009
Grant Programs Information Technology Systems and Associated Applications support the efforts of
FEMA’s proactive nondisaster grant programs. Collections may include name, work address, Social Security
number (used as Employer Identification Number), financial information, work email address, and work
numbers for telephone, fax, and, cell phone, and information on activity funded by the grant.
   Assisted Firefighters        Completed         DHS/FEMA/PIA-013             DHS/FEMA-004, 74 FR 39705
        Grant (AFG)             Dec 9, 2011           Jul 14, 2009                      Aug 7, 2009
                                Completed         DHS/FEMA/PIA-013             DHS/FEMA-004, 74 FR 39705
  Grants Reporting Tool
                                Nov 3, 2009           Jul 14, 2009                      Aug 7, 2009
     Non-Disaster (ND)          Completed         DHS/FEMA/PIA-013             DHS/FEMA-004, 74 FR 39705
           Grants               Jul 2, 2008           Jul 14, 2009                      Aug 7, 2009
 Hazard Mitigation Grant        Completed         DHS/FEMA/PIA-025             DHS/FEMA-009, 77 FR 17783
          Program              Feb 15, 2012           Jun 28, 2012                      Jul 23, 2012
Mitigation Programs Information Technology Systems and Associated Applications support the efforts
of FEMA’s mitigation and disaster grants missions implementing mitigation activities to reduce or eliminate risk
of future damage to life or property. Collected information may include name, address of damaged property,
mailing address, telephone number, financial information, insurance status, insurance claims, and damaged
property contents.
   Mapping Information          Completed         DHS/FEMA/PIA-003 DHS/FEMA/NFIP/LOMA-1, 71 FR 7990
Platform – Data Center 2        Feb 2, 2011           Jan 27, 2006                     Feb 15, 2006
                                Completed         DHS/FEMA/PIA-006          DHS/FEMA/2006-002, 69 FR 75079
          eGrants
                               Feb 10, 2011           Jan 19, 2007                     Dec 15, 2004
                                Completed         DHS/FEMA/PIA-007             DHS/FEMA-003, 73 FR 77747
    Map Service Center
                                Sep 7, 2006           Feb 12, 2007                     Dec 19, 2008
  Map Service Center –
       On-Line Digital          Completed         DHS/FEMA/PIA-007             DHS/FEMA-003, 73 FR 77747
Distribution Center (MSC        May 7, 2010           Feb 12, 2007                     Dec 19, 2008
       On-Line DDC)
       Total Records            Completed         DHS/FEMA/PIA-009              DHS/ALL-003, 73 FR 71656
Information Management          May 3, 2012           Sep 8, 2008                      Nov 25, 2008
National Flood Insurance
                                Completed         DHS/FEMA/PIA-011             DHS/FEMA-003, 73 FR 77747
   Program Information
                                Jul 1, 2009           Nov 26, 2008                     Dec 19, 2008
   Technology Systems
Emergency Management
                                Completed         DHS/FEMA/PIA-013             DHS/FEMA-004, 74 FR 39705
     Mission Integrated
                               Jan 17, 2012           Jul 14, 2009                      Aug 7, 2009
        Environment
 Enterprise Coordination
                                Completed         DHS/FEMA/PIA-023
  and Approval Process                                                                 Not Applicable
                                Mar 7, 2011          May 21, 2012
          System
 Community Information          Completed                                      DHS/FEMA-003, 73 FR 77747
                                                     Not Completed
          System               Dec 13, 2011                                            Dec 19, 2008
National Preparedness Programs Information Technology Systems and Associated Applications
support FEMA’s mission to assist citizens and first responders in preparation for all hazards through training
and exercise programs. Collections may include name, address, telephone number, email address, citizenship,
employment status, organizational affiliations, professional credentials, user names, and passwords.
     Lessons Learned            Completed           DHS/ALL/PIA-015             DHS/ALL-004, 74 FR 49882
    Information Sharing        Feb 10, 2011           Jun 15, 2009                     Sep 29, 2009
                                Completed         DHS/FEMA/PIA-008              DHS/ALL-004, 74 FR 49882
First Responder Training
                               Nov 16, 2009           Jul 16, 2008                     Sep 29, 2009




www.oig.dhs.gov                                      29                                           OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                 Privacy
                                                     Privacy Impact
                                Threshold                                        System of Records Notice
  Name of IT System                                   Assessment
                                 Analysis                                             (Required: 45)
                                                     (Required: 38)
                              (Required: 46)
      Corrective Action          Completed         DHS/FEMA/PIA-016             DHS/FEMA-011, 76 FR 19107
      Planning System          Aug 10, 2009             Mar 3, 2011                        Apr 6, 2011
Design and Development           Completed         DHS/FEMA/PIA-016             DHS/FEMA-011, 76 FR 19107
           System               Jan 26, 2010            Mar 3, 2011                        Apr 6, 2011
 National Exercise Master
                                 Completed         DHS/FEMA/PIA-016             DHS/FEMA-011, 76 FR 19107
     Scenario Event List
                               Nov 15, 2010             Mar 3, 2011                        Apr 6, 2011
          (NxMSEL)
      National Exercise          Completed         DHS/FEMA/PIA-016             DHS/FEMA-011, 76 FR 19107
     Scheduling System         Aug 21, 2009             Mar 3, 2011                        Apr 6, 2011
    Center for Domestic
                                 Completed         DHS/FEMA/PIA-022             DHS/FEMA-011, 76 FR 19107
  Preparedness Learning
                                Jun 18, 2008           Mar 29, 2012                        Apr 6, 2011
   Management System
      FEMA Employee
                                 Completed                                       DHS/ALL-003, 73 FR 71656
     Knowledge Center                                 Not Applicable
                                Jul 19, 2006                                              Nov 25, 2008
           (FEKC)
United States Fire Administration Programs Information Technology Systems and Associated
Applications support the training programs of the National Fire Academy and other United States Fire
Administration programs. Collected information may include name, address, telephone number, email
address, citizenship, educational information, disability information, organizational affiliation, and fire
department identification number.
     United States Fire          Completed          DHS/ALL/PIA-006              DHS/ALL-002, 73 FR 71659
Administration Web Farm        Sep 17, 2009            Jun 15, 2007                       Nov 25, 2008
    National Emergency
                                 Completed         DHS/FEMA/PIA-022              DHS/ALL-003, 73 FR 71656
 Training Center Learning
                                April 5, 2010          Mar 29, 2012                       Nov 25, 2008
      Resource Center
     United States Fire          Completed         DHS/FEMA/PIA-022             DHS/FEMA-011, 76 FR 19107
 Administration Systems         Jan 18, 2012           Mar 29, 2012                        Apr 6, 2011
   National Fire Incident        Completed                                      DHS/FEMA-008, 74 FR 48763
                                                      Not Applicable
     Reporting System           Feb 6, 2009                                               Sep 24, 2009
Mission Support Systems and Associated Applications support all of FEMA’s missions in disaster
assistance, proactive grants programs, disaster mitigation grants, and training activities. These overarching
systems’ collections may include: name, address, Social Security number, birthdates, telephone number,
email address, NEMIS registration ID, disaster-related damage information, insurance information, financial
information, education records, vehicle identifiers, criminal history information, identity verification methods,
and biometric (fingerprint) data.
    Logistics Information
                                 Completed          DHS/ALL/PIA-006              DHS/ALL-010, 73 FR 63181
   Management System
                                Feb 8, 2011            Jun 15, 2007                        Oct 23, 2008
       (LIMS) – FEMA
 Executive Management            Completed          DHS/ALL/PIA-012              DHS/ALL-002, 73 FR 71659
           System              Nov 15, 2010            Jan 14, 2009                       Nov 25, 2008
   Electronic Fingerprint        Completed        DHS/ALL/PIA-014(a)              DHS/ALL-024, 75 FR 5609
        System (EFS)            Feb 2, 2009            Jun 18, 2009                       Feb 30, 2010
      Velocity Security
                                 Completed        DHS/ALL/PIA-014(a)              DHS/ALL-024, 75 FR 5609
   Management System
                                Jul 29, 2010           Jun 18, 2009                       Feb 30, 2010
  (Hirsch) – Unclassified
 The Full-Spectrum Risk          Completed          DHS/ALL/PIA-015              DHS/ALL-004, 74 FR 49882
      Knowledgebase             May 2, 2011            Jun 15, 2009                       Sep 29, 2009
   Integrated Situational
                                 Completed          DHS/ALL/PIA-036              DHS/ALL-004, 74 FR 49882
 Awareness Visualization
                               Aug 31, 2011             Mar 8, 2011                       Sep 29, 2009
         Environment




www.oig.dhs.gov                                        30                                             OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


                                 Privacy
                                                     Privacy Impact
                                Threshold                                        System of Records Notice
    Name of IT System                                 Assessment
                                 Analysis                                             (Required: 45)
                                                     (Required: 38)
                              (Required: 46)
Document Management
                                Completed         DHS/FEMA/PIA-009              DHS/FEMA-008, 74 FR 48763
 and Records Tracking
                               Jan 10, 2007         Sep 10, 2008                      Sep 24, 2009
        System
   Quality Assurance            Completed         DHS/FEMA/PIA-015              DHS/FEMA-002, 76 FR 8758
   Recording System            Apr 25, 2012         Nov 10, 2010                      Feb 15, 2011
 Firehouse Database –           Completed         DHS/FEMA/PIA-019              DHS/OHA-0021, 76 FR 53921
      Unclassified             Dec 16, 2011         Dec 15, 2011                      Aug 30, 2011
  Integrated Financial
                                Completed         DHS/FEMA/PIA-020             DHS/FEMA-0082, 74 FR 48763
Management Information
                               Nov 23, 2011         Dec 16, 2011                     Sep 24, 2009
System (IFMIS)-Merger
   Authentication and            Completed                                       DHS/ALL-002, 73 FR 71659
                                                      Not Applicable
 Provisioning Services          Jul 25, 2006                                          Nov 25, 2008
                                 Completed                                       DHS/ALL-004, 74 FR 49882
Enterprise Wireless LAN                               Not Applicable
                                Mar 7, 2012                                           Sep 29, 2009
Intelligent Roads and Rail       Completed                                       DHS/ALL-004, 74 FR 49882
                                                      Not Applicable
    Information System          Jun 5, 2009                                           Sep 29, 2009
        Real Property
                                Completed                                        DHS/ALL-004, 74 FR 49882
   Management System                                  Not Applicable
                               Jan 19, 2011                                           Sep 29, 2009
          (RPMS)
 Resource Management            Completed                                        DHS/ALL-004, 74 FR 49882
                                                      Not Applicable
           Online               Apr 5, 2010                                           Sep 29, 2009
   Accounting Package           Completed         DHS/FEMA/PIA-024               DHS/ALL-008, 73 FR 61880
    System (ACCPAC)            Aug 12, 2010          Jun 8, 2012                       Oct, 17 2008
       Enterprise Data          Completed         DHS/FEMA/PIA-026               DHS/ALL-004, 74 FR 49882
         Warehouse             Dec 30, 2011         Jun 29, 2012                      Sep 29, 2009
Source: TAFISMA
1
  DHS SORN listed in figure 11. Additional SORNs apply to this IT system: OPM/GOVT-10 Employee Medical File
System of Records, Jun 19, 2006, 71 FR 35360 and OPM/GOVT-1 General Personnel Records, Jun 19, 2006, 71 FR
35342.
2
  FEMA SORN listed in figure 11. Additional SORNs apply to this IT system: DHS/ALL-007 Accounts Payable System of
Records, Oct 17, 2008, 73 FR 61880; DHS/ALL-008 Accounts Receivable System of Records, Oct 17 2008, 73 FR 61885;
DHS/ALL-019 Payroll, Personnel, Time, and Attendance Records, Oct 23, 2008, 73 FR 62172; DHS/FEMA-2006-0002
National Emergency Management Information System – Mitigation Electronic Grants Management System (NEMIS-
MT eGrants), Dec 15, 2004, 69 FR 75079; and, GSA/Government-wide 4 Contracted Travel Services Program, Jun 3,
2009, 41 FR 26700.




www.oig.dhs.gov                                        31                                             OIG-13-87

                  OFFICE OF INSPECTOR GENERAL
                   Department of Homeland Security


Appendix F
FEMA Unauthorized Information Technology Systems
Memorandum




www.oig.dhs.gov                32                    OIG-13-87

                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security




          Page 2 - Unauthorized Infonnation Technology Systems

          Unauthorized systems are those systems that do not possess a recognized federal government
          Cel1ificatioll and Accreditation (C&A); or the: system owner is unable to provide proof that the
          artifacts required for C&A werc submitted to the Office ofthc Chief Infonnation Officer and
          meet federal requirements. "RObrue" systems are those systems that have never been through the
          C&A process .

          Attached please find a list of systems that either alreau), possess a C&A or an~ apprupriatdy
          matriculating through the System Life Cycle process with the end goal of recciving a C&A
          If you are operating a system that is not on the attached list, ple ase provide the following
          infonnation:

               •   System Name and Acronym
               •   System Number
               •   System Type
               •   System Development Life Cycle Status
               •   Indicate:
                       o Financial System or Non-Financial System
                       o Critical Asset or Non-Critical Asset

          If you are operating a system with a C&A, but do not maintain the artifacts that prove the C&A
          was appropriately acquired; plt:a.Se providt: the following information for each such system:

               •   System Name and Acronym
               •   TAF ID
               •   System Number
               •   System Type
               •   System Development Life Cycle Status
               •   Indicate:
                       o Financial System or Non-Financial System
                       o Critical Asset or non-Critical Asset
               •   System Expiration Date

          This is a very serious matter. Therefore, I encourage each of you to conduct a line by line review
          of the attached list. Be diligent and thorough in the review of the systems under your pUlView
          and providc me with the requested infonnation beforc or at the conclusion of the Amncsty
          Period . Please note, at the conclusion of the Amnesty Period ifit is detennined that you are
          operating unauthorized IT Systems, appropriate corrective action may he taken. Such action \ViII
          impact the appropriate Chief and the relevant system owner/operator.

          If you have any questions or concerns please contact Elisa Cruz, Chief Information Sccurity
          Officer, and project lead for this initiative. She can be reached at 202.646.3541 or
          Elisa.CruzCa1fema.dhs .gov.




Source: FEMA



www.oig.dhs.gov                                           33                                                   OIG-13-87
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix G
DHS Fair Information Practice Principles at Work
Figure 12. DHS Fair Information Practice Principles at Work




www.oig.dhs.gov                          34                   OIG-13-87

                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



     Data Minimization
     DHS seeks to minimize its collection of PlI through its privacy compliance processes in two ways. First, the DHS Privacy
     Office works with the Office of the Chief Information Officer on the Paperwork Red uction Act process that seeks to
     minimize the collection of information, including PI! from the public. Second, PIAs and SORNs require that data
     ele ments being collected are both relevant and necessary for the stated purpose of the system. DHS places a special
     em phasis on reduci ng the use of Socia l Security num bers (SSNs). DHS does not coiled SSNs unless there is a valid
     authority for their collect ion.

     Use Limitation
     DHS lim its its uses of PI! to those that are permissible under law, and articulated in published PIAs and SORNs. Uses may
     include sharing both inside and outside of DHS. With in the Department, use of PII is limited to personnel who have an
     authorized need-to-know for the information. For exte rnal sha ring, these uses are lega lly defined "routine uses," and
     must be compatible with the original collection and purpose s pecification . Absent a statutory requirement to disclose
     specific information, s uch routine use sharing decisions are made following a case-by-case review by the DHS Privacy
     Office to ensure a request meets the requirements. Sharing PlI with external e ntities is done pursuant to routine uses
     articulated in published SORNs and may also be authorized by a written informa tion sharing agreement, such as a
     Me morandum of Understanding, between the Department and the receiving agency.

     Data Qual ity and Integrity
     To e nsu re data quality, DHS collects information directly from the individual where pract icable, especially in benefit
     administration fun ct ions. Recognizing data e rrors occur, DHS has imple mented redress mechanisms that e nable
     individuals to seek access and correction of their information through the FOIA/Privacy Act process, as described above.
     Travelers who experience difficulties may also seek redress through DHS TRIP.

     Security
     Since privacy and security are complementary, DHS Privacy Office works closely with the Office of the Chief Information
     Officer and the Olief Informa tion Security Officer to ensure that security controls are put in place in rr systems that are
     comme nsu ra te with the sensitivity of the information they hold. Privacy require ments are built into the DHS Sensitive
     Systems Secu rity Policy to sa fegua rd PII from inappropriate, unauthorized, or unlawful access, use, disclosure, or
     destruction. By law, such syste ms must be certified as meeting relevant security standa rds. Syste m and program
     managers are requi red to complete a Privacy Threshold Ana lysis, as well as a PIA and SORN, if applicable, before an IT
     system becomes operational.

     Accountability and Auditing
     DHS' privacy protect ions are subject to oversight by its Chief Privacy Officer and Inspector General as well as by the
     Government Accountability Office and the U.S. Congress. In addition to these oversight mechanisms, component
     privacy officers, system owne rs, and program managers implement acco untability in their systems and programs
     through activities such as periodic review of audit logs to e nsure that uses of PH are consiste nt with the purposes
     articulated for the collect ion of that information, as required by the Privacy Act. Further, as public documents, PIAs a nd
     SORNs not only demonstrate transpa rency but also serve as means by which the public can hold the Depa rtme nt
     accountable for its collection, use, and sha ring of PII.

     June 2011




                   Website: www.dhs.gov/privacy         Email: privacy@dhs.gov     Phone: 703-235-0780



Source: DHS Privacy Office




www.oig.dhs.gov                                                   35                                                          OIG-13-87
                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix H
Culture of Privacy Survey
We developed a privacy questionnaire with assistance from the FEMA Privacy Officer. In
January 2012, we emailed the FEMA employees a hyperlink to a secure site and asked
them to complete an online culture of privacy survey. Survey participation was
voluntary, confidential, and accessible only by OIG. The purposes of the survey were to
assess privacy knowledge of rules, regulations, and legislation and to obtain employees’
responses to five questions pertaining to privacy risks, examples of privacy risks,
improvements to privacy training, integrating privacy safeguards in daily operations, and
promoting a privacy culture at FEMA.

FEMA’s employee list was used to generate survey invitations. A total of 2,290
respondents completed the FEMA Culture of Privacy Survey. The completed survey
response rate was 2,290 (12.8 percent) of 17,837. Figure 13 presents the levels of job
responsibility, locations, job types, and lengths of service of respondents who
completed the survey.

Figure 13. Demographics of Survey Respondents
                                          DEMOGRAPHICS
                                  (n = 2,290 Survey Respondents)
            LEVEL OF JOB RESPONSIBILITY                                LOCATION
            Entry-level Employees (11.9%)                     FEMA Headquarters (18.8%)
  Mid to High-level (Nonmanager) Employees (65.4%)   FEMA Regions I-X, and Field Activities (40.1%)
       Supervisors/First-Line Managers (19.3%)        Other, including National Processing Service
          Executive/Senior Managers (3.4%)                          Centers (41.1%)
                                                                  LENGTH OF SERVICE
                    TYPE OF JOB
                                                              OF PERMANENT EMPLOYEES
       Permanent, Full-time Employees (42.1%)
                                                              Less than 3 months (0.2%)
    Cadre of On-Call Response/Recovery Employees
                                                                 3–12 months (2.0%)
                        (27.6%)
                                                                  1–3 years (25.2%)
        Disaster Assistance Employees (29.0%)
                                                              More than 3 years (72.6%)
               Other Employees (1.3%)
Source: OIG





www.oig.dhs.gov                                36                                          OIG-13-87

                        OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix I
Major Contributors to This Report
Marj Leaming, Director
Eun Suk Lee, Privacy Audit Manager
Kevin Mullinix, Program Analyst
Bridget Glazier, Referencer




www.oig.dhs.gov                        37                    OIG-13-87

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


Appendix J
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Administrator of FEMA
Acting Chief Privacy Officer
Chief Information Officer
FEMA Audit Liaison Office
FEMA Privacy Office

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                               38                        OIG-13-87

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
